      Department of Homeland Security



        Relationships Between Fusion Centers
         and Emergency Operations Centers




OIG-12-15                                  December 2011
                                                            Office ofInspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                                            Homeland
                                                            Security
                                      DEC     6 20'11

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the strengths and weaknesses of Fusion Centers and Emergency
Operations Centers relationships, interactions, and capacity to share information with one
another. It is based on interviews with employees and officials of relevant agencies and
institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who con . uted to the preRaration of this report.




                                               ...
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Audit ...................................................................................................................6


     Relationships Between Fusion Centers and Emergency Management..........................6 

     Recommendations........................................................................................................11 

     Management Comments and OIG Analysis ................................................................11 


     Roles, Capabilities, and Information Needs ................................................................13 

     Recommendations........................................................................................................18 

     Management Comments and OIG Analysis ................................................................18 


     Federal Coordination and Information Sharing Guidance ...........................................19 

     Recommendation .........................................................................................................22 

     Management Comments and OIG Analysis ................................................................23 


     Classification of Information .......................................................................................24 

     Recommendations........................................................................................................27 

     Management Comments and OIG Analysis ................................................................28 


Appendices
     Appendix A: Purpose, Scope, and Methodology.......................................................29 

     Appendix B: Management Comments to the Draft Report .......................................30 

     Appendix C: Fusion Center Map and List of State and

                 Major Urban Area Fusion Centers.......................................................37 

     Appendix D: Major Contributors to this Report........................................................40 

     Appendix E: Report Distribution ..............................................................................41 


Abbreviations
     CPG-502 	             Comprehensive Preparedness Guide-502, Considerations for Fusion
                           Center and Emergency Operations Center Coordination
     DHS                   Department of Homeland Security 

     DOJ                   Department of Justice 

     EOC                   Emergency Operations Center           

     FEMA                  Federal Emergency Management Agency 

     FY                    fiscal year            

     GAO                   Government Accountability Office 

     I&A                   Office of Intelligence and Analysis 

     OIG                   Office of Inspector General 

OIG

Department of Homeland Security
Office of Inspector General
Executive Summary
                  Fusion Centers and Emergency Operations Centers play a critical role in
                  linking state and local on-the-ground information with the strategies and
                  response of the federal government. It is imperative that they foster
                  relationships to work together effectively and establish policies and
                  protocols to coordinate and share relevant information and intelligence
                  during daily operations and emergencies to enhance the safety of the
                  public.

                  Fusion Centers and Emergency Management efforts are enhanced with
                  better interaction and information sharing. Some Fusion Centers are all-
                  crimes oriented and do not consider Emergency Operations Centers as
                  partners in their operations. Many Emergency Operations Center officials
                  view Fusion Centers as solely law enforcement entities and either do not
                  see a need or do not know how to effectively coordinate with them. These
                  officials would benefit from building stronger mutual relationships.

                  Officials at Fusion Centers and Emergency Operations Centers we visited
                  were not always aware of each other’s roles, capabilities, and information
                  needs. In some areas, these officials had limited or no interaction, which
                  could hinder response to natural or man-made disasters. Fusion Center
                  and Emergency Operations Center officials also were not always aware of
                  and did not always utilize federal guidance developed to address
                  coordination and information sharing efforts. More than 83% of the
                  locations visited were either unaware of or did not utilize federal guidance
                  for Fusion Center and Emergency Operations Center interaction provided
                  in Comprehensive Preparedness Guide 502.

                  Finally, the classification of information impedes effective information
                  sharing between Fusion Centers and Emergency Operations Centers
                  officials. Classification challenges exist at the federal level and with state
                  law enforcement agency practices.

                  We are making eight recommendations that, when implemented, should
                  improve Fusion Centers and Emergency Operations Centers interaction
                  and information sharing efforts.




              Relationships Between Fusion Centers and Emergency Operations Centers

                                             Page 1
Background
                           According to The 9/11 Commission Report, a breakdown in
                           information sharing contributed to the collective failure to prevent
                           the September 11, 2001, terrorist attacks. To promote greater
                           collaboration and information sharing among federal, state, and
                           local intelligence and law enforcement entities, states and some
                           major urban areas have established a network of Fusion Centers
                           throughout the country. (Appendix C includes a map and list of all
                           72 federally recognized state and major urban area Fusion
                           Centers.) A Fusion Center is a collaborative effort of two or more
                           agencies that provide resources, expertise, and information to the
                           center with the goal of maximizing the ability to detect, prevent,
                           investigate, and respond to criminal and terrorism activity.
                           (Figure 1 illustrates the fusion process.)

                           Figure 1. Fusion Process




                           Source: Department of Homeland Security.

                           Fusion Centers are a valuable information sharing resource for
                           state and major urban areas, serving as the focal but not exclusive
                           point within the state and local environment for receiving and
                           sharing terrorism, homeland security, and law enforcement
                           information related to terrorism. Fusion Centers provide their core
                           and ad hoc customers1 with an array of products and messages,

1
  Core (involved in Fusion Center activities on a regular basis) and ad hoc (one-time or limited participation
in fusion activities) partners include entities from the following areas: agriculture; food, water, and the
environment; chemical industry and hazardous materials; criminal justice; emergency services; information
and telecommunications; military facilities and defense industrial base; private security; public works; and
transportation. Each Fusion Center may define its core or ad hoc partner sectors.



                  Relationships Between Fusion Centers and Emergency Operations Centers

                                                   Page 2
        including Alerts, Warnings, and Notifications; Law Enforcement
        Briefs; and Regional Crime Patterns and Trends. Table 1 lists
        some of the products that Fusion Centers provide to stakeholders.

Table 1. Examples of Fusion Center Products
    Alerts, Warnings, and Notifications  Risk Assessments for Local Major
                                         Events
    Law Enforcement Briefs               Fusion Center Quick Notes
    Regional Crime Patterns/Trends       State Critical Infrastructure Threat
                                         Assessments
    Critical Infrastructure/Key Resource Monthly Fusion Center Bulletins
    Threat Reports
    Fusion Liaison Officer Communication Common Operating Picture
    emails, calls, and conferences


        Over time, Fusion Centers have become an integral part of the
        federal government’s approach to information sharing with state
        and local partners. The Department of Homeland Security (DHS)
        and the Department of Justice (DOJ) have worked with Fusion
        Centers since their inception. In August 2006, DHS and DOJ, in
        collaboration with state and local partners, published the Fusion
        Center Guidelines. These guidelines provide assistance for
        developing Fusion Centers and were intended to improve
        consistency among the state and major urban area Fusion Centers,
        enhance coordination, strengthen regional and national
        partnerships, and improve Fusion Center capabilities. Further, in
        October 2007, the first National Strategy for Information Sharing,
        which designated Fusion Centers as the primary state and local
        entities for sharing terrorism-related information, was released.

        Since 2004, when states began creating Fusion Centers, DHS has
        taken steps to partner with these centers to accomplish DHS’
        information sharing goals. Congress formally mandated that DHS
        support Fusion Centers in the Implementing Recommendations of
        the 9/11 Commission Act of 2007 (P.L. 110-53). This law also
        requires DHS to implement systems to support information sharing
        within the Department and among federal, state, and local partners.
        DHS’ Office of Intelligence and Analysis (I&A) is the
        Department’s lead component for coordination with Fusion
        Centers, and the DHS Support Implementation Plan for State and
        Local Fusion Centers, released in June 2006, designated I&A as
        the executive agent for managing the DHS role in the nationwide
        fusion center initiative.




Relationships Between Fusion Centers and Emergency Operations Centers

                               Page 3
                  Figure 2. New Jersey Regional Operations Intelligence Center




                  Source: DHS.

                           DHS I&A’s mission is to equip the homeland security enterprise
                           with the intelligence and information it needs to keep the Nation
                           safe, secure, and resilient. DHS I&A’s strategic plan contains
                           goals that include strengthening the Nation’s network of Fusion
                           Centers and building support for and integrating a robust
                           information sharing capability among state, local, territorial, and
                           tribal authorities and the private sector.

                           Within DHS I&A, the State and Local Program Office unifies and
                           coordinates federal and departmental support to the national
                           network of Fusion Centers and serves as an advocate for the
                           Fusion Centers within the federal government activities. Among
                           its activities to support Fusion Centers, the State and Local
                           Program Office led the initiative to deploy intelligence officers2 to
                           Fusion Centers to facilitate and coordinate information sharing
                           between the centers and DHS. Its goal was to deploy intelligence
                           officers at all 72 Fusion Centers and establish 10 regional
                           representatives by the end of fiscal year (FY) 2010. As of June
                           2011, there were 64 intelligence officers and 9 regional
                           representatives at the Fusion Centers. The State and Local
                           Program Office also coordinated the installation of classified and
                           unclassified information technology systems at Fusion Centers to
                           support information sharing.



2
  DHS intelligence officers serve two roles: (1) partner with Fusion Centers to better achieve the Baseline
Capabilities and (2) manage the intelligence cycle in their area of responsibility to include the sharing of
threat-related information between state, local, tribal, and territorial partners and the federal government.



                  Relationships Between Fusion Centers and Emergency Operations Centers

                                                    Page 4
                          An Emergency Operations Center (EOC) is the physical location
                          where information and resources are coordinated to support incident
                          management (on-scene operations) activities.3 An EOC may be a
                          temporary facility to meet short-term goals or may be permanent.
                          EOCs may be organized in different ways, including by function
                          (e.g., fire, law enforcement, or medical services), jurisdiction (e.g.,
                          federal, state, regional, tribal, city, or county), or some combination
                          of the two. The core responsibilities of an EOC include
                          coordination, communication, resource allocation and tracking, and
                          information collection, analysis, and dissemination related to a
                          specific incident. EOCs help coordination of on-scene command by
                          forming a common operating picture, and secure additional
                          resources during an incident. EOCs also aid in the sharing of all-
                          hazards operational information and provide subject matter expertise
                          to support incident management and response activities.

                 Figure 3. Oklahoma City, OK, Emergency Operations Center




                 Source: Federal Emergency Management Agency.

                          Fusion Centers and EOCs serve distinct but complementary roles
                          in supporting the country’s homeland security efforts. Fusion
                          Centers share information across all levels of government to
                          support homeland security partners in preventing, protecting
                          against, and responding to crime and terrorism, while EOCs
                          primarily provide information and support to incident management
                          and response and recovery coordination activities. Collaboration
                          between Fusion Centers and EOCs enables both to carry out their
                          individual missions more efficiently.

3
  Emergency Operations Centers are part of the emergency management structure. During our review, we
interviewed emergency management officials to obtain an understanding of their interactions with Fusion
Center officials. In this report, when we discuss interactions with EOCs, we refer to interactions with
emergency management officials, both on a day-to-day basis and when an EOC is operational.



                 Relationships Between Fusion Centers and Emergency Operations Centers

                                                 Page 5
                           In many situations, Fusion Centers and EOCs may have information
                           that others may be able to use. For example, if a Fusion Center
                           receives information regarding a threat to an event that could cause
                           mass casualties, the EOC and other emergency responders could
                           use that information to be better prepared to respond. Conversely,
                           information received at an EOC that seems inconsequential could
                           be part of a larger pattern, which may be recognized only if that
                           information is sent to the Fusion Center for analysis.

                           DHS and Federal Emergency Management Agency (FEMA) grants
                           help fund both Fusion Centers and EOCs. Five different grant
                           programs comprise the Homeland Security Grant Program,4 and
                           according to a FEMA official, each can be used to support Fusion
                           Center activities. However, it is unknown how much Homeland
                           Security Grant Program funding went to Fusion Centers in the last
                           fiscal year, or any years prior, because FEMA did not track this
                           information. According to FY 2011 grant guidance, states for the
                           first time must include whether grant funding will be used to
                           support Fusion Center activities. There is also a separate EOC
                           Grant program designed to fund construction of and improvements
                           to state and local EOCs. In FY 2010, the EOC grant program was
                           funded at $57.6 million, of which just over $10 million was
                           awarded through a competitive process.

Results of Audit
         Relationships Between Fusion Centers and Emergency
         Management
                  Some Fusion Centers consider themselves all-crimes or counterterrorism5
                  focused; others have adopted an all-hazards approach.6 Where there is an

4
  State Homeland Security Program, Urban Areas Security Initiative, Operation Stone Garden,
Metropolitan Medical Response System, and Citizen Corps Program.
5
  All-crimes and counterterrorism typically refer to an approach that incorporates terrorism and other high-
risk threats into the existing crime-fighting framework, to ensure that possible precursor crimes are
screened and analyzed for linkages to larger-scale terrorist or other crimes. This approach recognizes the
nexus between types of criminal activity (e.g., illegal drug operations, gangs, money laundering, fraud,
identity theft) and terrorism.
6
  All-hazards typically refers to an approach that prepares for terrorist attacks, major disasters, and other
emergencies. Although the application of this approach varies, it generally means that the Fusion Center
has identified and prioritized types of major disasters and emergencies, beyond terrorism and crime, that
could occur within its jurisdiction and gathers, analyzes, and disseminates information that would assist the
relevant agencies (e.g., law enforcement, fire, public health, emergency management, critical
infrastructure) with prevention, protection, response, or recovery efforts.



                  Relationships Between Fusion Centers and Emergency Operations Centers

                                                   Page 6
all-crimes or a counterterrorism focus, emergency management is not
always considered a partner in fulfilling Fusion Center responsibilities.
Designations such as all-crimes and counterterrorism may omit the
emergency management perspective. Where Fusion Centers adopt such
designations, information sharing with EOCs is significantly limited or
nonexistent. Additionally, many EOC officials view Fusion Centers as
solely “law enforcement entities” and do not see the benefits of
coordinating with Fusion Centers. These perceptions limit the
effectiveness and efficiency of both Fusion Centers and EOCs.

        The Emergency Management Role in the Fusion Process

        Congress has stressed the importance of emergency management
        as being part of the fusion process. The conference report
        accompanying the Implementing the Recommendations of the 9/11
        Commission Report Act of 2007 states that “[e]mergency response
        providers are able to provide valuable information to the overall
        intelligence picture.” It further states that “the fusion center
        governing boards and the fusion process should be structured so as
        to enable the consideration of nontraditional information from
        emergency response providers in a collaborative environment.”
        Additionally, the Implementing the Recommendations of the 9/11
        Commission Report Act of 2007 states that the DHS Secretary, in
        consultation with the Attorney General, shall establish guidelines
        that “create a collaborate environment for the sharing of
        intelligence and information among Federal, State, local, and tribal
        government agencies (including law enforcement officers and
        other emergency response providers), the private sector, and the
        public.”

        According to the Quadrennial Homeland Security Review released
        in February 2010, the vision of homeland security is to ensure a
        country “that is safe, secure and resilient against terrorism and
        other hazards where American interests, aspirations, and way of
        life can thrive.” The Quadrennial Homeland Security Review
        further notes that “Homeland security will only be optimized when
        we fully leverage the distributed and decentralized nature of the
        entire enterprise in the pursuit of our common goals.” Both Fusion
        Centers and emergency management are critical components of the
        decentralized homeland security apparatus.




Relationships Between Fusion Centers and Emergency Operations Centers

                               Page 7
        Benefits of an All-Hazards Approach

        An all-hazards approach to securing the homeland includes
        preparing for terrorist attacks, major disasters, and other
        emergencies. This approach does not mean being prepared for
        every possible hazard that could occur. Rather, it means that a
        jurisdiction should identify and plan for the types of emergencies
        and major disasters, whether they are terrorism or crime-related,
        natural or manmade, which could occur within its coverage area.
        This suggests that a jurisdiction can enhance its preparedness and
        response abilities when the spectrum of intelligence, law
        enforcement, and emergency management disciplines share
        information and coordinate their efforts.

        The purpose of DHS is to link prevention, preparedness, response,
        and recovery into a single operational department, and an all-
        hazards approach is necessary for a robust homeland security
        apparatus. As critical partners in our Nation’s homeland security
        efforts, Fusion Centers can better support the common goals of
        homeland security laid out by DHS by incorporating an all-hazards
        approach and building effective relationships with EOCs.

        Fusion Center and emergency management officials explained how
        adopting an all-hazards approach and partnering with one another
        enhances both Fusion Center and EOC operations. For example,
        one Fusion Center director stated that his staff was able to provide
        valuable information to the State Office of Emergency
        Management about flooding in the state using the Fusion Center’s
        geospatial mapping capabilities. Another Fusion Center was able
        to support a county EOC during a natural disaster by disseminating
        information through its various partner organizations, widening the
        reach of the EOC. As a result of this collaboration, the Fusion
        Center was incorporated into the county’s Comprehensive
        Emergency Management Plan. Emergency management officials
        in another county worked with their Department of Public Works
        partners to provide the “eyes and ears” of park employees to watch
        for signs of terrorist activity in the county’s parks, which could be
        reported to the Fusion Center. When officials on both the Fusion
        Center and emergency management sides viewed each other as
        partners in an all-hazards approach, they described how this
        enhanced both of their operations.




Relationships Between Fusion Centers and Emergency Operations Centers

                               Page 8
                         Approach Incorporated by the Fusion Center Affects
                         Relationships With Emergency Management

                         The Fusion Center Guidelines (Guidelines) released jointly by
                         DHS and DOJ in August 2006 emphasize the importance of
                         emergency management as a Fusion Center partner. The Guidelines
                         state that “If an incident occurs, all [of these] resources will be
                         needed to successfully minimize loss and apprehend suspects. The
                         Fusion Center provides intelligence to the EOC regarding the
                         disaster or related events (regardless of whether the Fusion Center
                         is all-crimes or all-hazards). Because of the investment, expertise,
                         and capability integrated within a Fusion Center, plans and
                         procedures should include how each Fusion Center will support the
                         jurisdiction’s emergency management structure during a crisis.”
                         The Baseline Capabilities for State and Major Urban Area Fusion
                         Centers (Baseline Capabilities)7 expands upon this by denoting one
                         of the baseline capabilities for all Fusion Centers as the ability to
                         coordinate with response and recovery officials.

                         Nevertheless, Fusion Centers are owned and operated by state and
                         local entities. Therefore, DHS does not have the authority to
                         compel them to take either an all-crimes or all-hazards approach.
                         Under the Baseline Capabilities, recognizing the sovereignty of the
                         state, local, and tribal governments that own and operate the
                         Fusion Centers, the decision on whether to take an all-crimes or
                         all-hazards approach is left up to the individual Fusion Center.
                         The missions of Fusion Centers vary based on the environment in
                         which each center operates.

                         Although a Fusion Center can adopt either approach for its
                         operations, the all-crimes approach may sever part of the link
                         between preparedness and response, a link that is critical to
                         protecting American lives. During our fieldwork, Fusion Centers
                         that considered themselves all-crimes oriented typically did not
                         develop relationships with emergency management officials.
                         Some Fusion Center officials said that the primary reason they
                         opted to take an all-crimes approach was that an all-hazards
                         approach might result in duplication of functions with EOCs.
                         However, technical assistance provided by DHS and DOJ outlines
                         how to mitigate this concern by clearly defining roles and
                         responsibilities.


7
 The Baseline Capabilities for State and Major Urban Area Fusion Centers document was released jointly
by DHS and DOJ in September 2008.



                 Relationships Between Fusion Centers and Emergency Operations Centers

                                                Page 9
        As of June 2011, DHS did not formally track whether Fusion
        Centers have taken an all-crimes or all-hazards approach in their
        operations. DHS also does not know the amount of funding it
        provides to Fusion Centers; however, this information will be
        captured for the first time as part of the FY 2011 homeland
        security grant application and reporting processes. In accordance
        with the FY 2011 Homeland Security Grant Program guidance,
        DHS is also requiring grantees to coordinate with the Fusion
        Center when developing fusion center investment prior to
        submission. Fusion Centers leveraging Homeland Security Grant
        Program funds must prioritize the allocation of these grant funds to
        address any capability gaps identified as a result of the 2010
        Baseline Capabilities Assessment. A more direct tie between
        funding and achievement of baseline capabilities should provide
        DHS an opportunity to have greater influence on the development
        of partnerships between Fusion Centers and the emergency
        management community. DHS officials also stated that they are
        working with FEMA to expand how grant funds can be used to
        further facilitate information sharing and coordination efforts
        between Fusion Centers and emergency management officials.

        Some Fusion Centers are just standing up and do not yet have the
        personnel and other resources to be all-hazards centers. Over time,
        however, it would be beneficial for Fusion Centers to evolve to
        encompass all hazards. DHS has invested substantially in the
        Fusion Center network and should promote the benefits of using an
        all-hazards approach to leverage emergency management resources.
        Emergency Operations Center officials can provide Fusion Centers
        with situational awareness of ongoing events and serve as a warning
        point during activation.

        Conclusion

        Adopting an all-hazards approach to Fusion Center operations
        fosters building effective relationships with emergency
        management. Fusion Center officials who did not view their
        operations as having all-hazards responsibilities generally saw
        little or no value in coordinating and sharing information with
        EOCs. As a result, the information that the emergency
        management structure could provide to Fusion Centers may not be
        gathered. Additionally, information that could allow emergency
        managers to prepare for a response may not be received from the
        Fusion Center in a timely manner, if at all. DHS Intelligence and
        Analysis needs to encourage Fusion Centers to adopt an all-



Relationships Between Fusion Centers and Emergency Operations Centers

                              Page 10
        hazards approach in accordance with the national homeland
        security strategy.

Recommendations
        We recommend that the Director, State and Local Program Office
        and Assistant Administrator, National Preparedness Directorate:

        Recommendation #1: Develop and distribute materials for Fusion
        Center and Emergency Management officials that outline the
        benefits of partnering in an all-hazards approach to homeland
        security, and gather and publish best practices from jurisdictions that
        have adopted an all-hazards approach.

        We recommend that the Director, State and Local Program Office
        and Assistant Administrator, Grant Programs Directorate:

        Recommendation #2: Report annually on the amount of homeland
        security grant funds awarded for Fusion Center use, as well as the
        number of Fusion Centers that have adopted an all-hazards approach
        or can demonstrate communication and coordination with
        Emergency Operations Center officials.

Management Comments and OIG Analysis
        Recommendation #1: DHS I&A and FEMA concurred with this
        recommendation. DHS I&A said that it has worked with federal,
        state, local, tribal, and territorial partners to develop and publish
        guidance in support of implementing all-hazards approaches. DHS
        I&A also said that, working with its departmental and interagency
        partners, it will continue to support the identification,
        documentation, and sharing of best practices and lessons learned
        from Fusion Centers as they work with their partners to implement
        all-hazards approaches. DHS I&A suggests that a full-time FEMA
        Protection and National Preparedness detailee be assigned to the
        State and Local Program Office to support efforts to integrate and
        coordinate emergency management participation in the Fusion
        Centers.




Relationships Between Fusion Centers and Emergency Operations Centers

                              Page 11
        FEMA said that the Fusion Process Technical Assistance Program
        completes best practice summaries on Fusion Center-EOC
        partnerships and makes write-ups available on the Lessons Learned
        Information Sharing System. FEMA also said that examples of
        best practices were included in CPG-502.

        Although DHS I&A and FEMA have taken steps to encourage
        Fusion Center-EOC partnerships, more needs to be done. During
        our fieldwork many Fusion Centers and EOCs that we visited had
        limited or no coordination and information sharing between each
        other. Additionally, emphasis needs to be placed on promoting an
        all-hazards approach in these partnerships.

        We consider this recommendation resolved because steps are being
        taken to implement it; however, it will remain open until DHS I&A
        and FEMA demonstrate more progress in promoting Fusion
        Center-EOC partnerships and adoption of an all-hazards approach.

        Recommendation #2: DHS I&A and FEMA concurred with this
        recommendation. DHS I&A said that the State and Local Program
        Office is documenting the number of Fusion Centers that have
        adopted an all-hazards approach or can demonstrate
        communication and coordination with emergency management
        partners. DHS I&A also said that FEMA’s Protection and
        National Preparedness Grant Programs Directorate is responsible
        for reporting the amount of homeland security grant funds
        leveraged for Fusion Centers, and it will support FEMA in its
        efforts to determine the most effective manner to capture this
        information. DHS I&A will continue to work with FEMA’s
        Protection and National Preparedness Grant Programs Directorate
        to recommend revisions to the EOC grant guidance as well as the
        Emergency Management Performance Grant Program guidance to
        support all-hazards approaches.

        FEMA said that it has the ability to track Fusion Center spending
        and it is capable of reporting annually on the amount of Homeland
        Security grant funds awarded for Fusion Center use.




Relationships Between Fusion Centers and Emergency Operations Centers

                              Page 12
             We consider this recommendation resolved because steps are being
             taken to implement it; however, it will remain open until evidence
             is provided that DHS I&A is documenting the number of Fusion
             Centers that have adopted an all-hazards approach and FEMA is
             tracking and reporting the amount of homeland security grant funds
             awarded for Fusion Center use.

Roles, Capabilities, and Information Needs
     Fusion Centers and EOCs are not always aware of each other’s roles,
     capabilities, and information needs. Fusion Center officials rarely had
     memorandums of understanding with EOCs and did not always solicit
     feedback. Some Fusion Centers we visited had reached out to EOCs, but
     others had made no attempts to establish relationships or communications.
     Fusion Centers and EOCs would be well served if they coordinate to better
     prepare for response and recovery operations. Specifically, Fusion
     Centers and EOCs need to understand each other’s information
     requirements. Additionally, Fusion Centers should disseminate
     appropriate products to share information with, and solicit feedback from
     EOCs. Similarly, EOCs should reach out to Fusion Centers and facilitate
     two-way communications before and during events.

             Understanding Roles and Responsibilities

             Not all Fusion Centers and EOCs identify and coordinate with one
             another to implement and maintain plans and procedures to ensure
             a common understanding of roles and responsibilities. The
             Baseline Capabilities states that Fusion Center plans should
             identify roles, responsibilities, and protocols to govern the timely
             reporting of significant events occurring within state or local
             jurisdictions to federal authorities and, when appropriate, other
             states, localities, or regional entities.

             In a Baseline Capabilities Assessment completed in 2010, most
             Fusion Centers identified their own intelligence and analytical
             roles and responsibilities in support of response and recovery
             activities. However, coordination with EOCs in developing
             response and recovery coordination plans is lagging. For example,
             one Fusion Center director said they do not have a plan to
             coordinate with response and recovery officials; “they just do it.”
             On the other hand, some Fusion Centers have policies, but admit
             they still must do a better job of implementing them.




     Relationships Between Fusion Centers and Emergency Operations Centers

                                   Page 13
                                               Fusion Centers that are colocated with EOCs
                                               and share reporting authorities coordinate
Figure 4. Additional Best Practices for        response and recovery efforts more
Fusion Center and EOC Coordination             effectively. In one location, the Fusion
                                               Center and the state EOC were not only
  Emergency Management Analyst—
  Performs detailed research and analysis
                                               colocated but were also under the same chain
  on all-hazards information for the           of command. Colocation fosters faster
  production of intelligence for all           information flow, and the two operations are
  homeland security stakeholders.              almost completely integrated.
  Fusion Center and EOC Detailees—
  Staff serve in facilities to improve
                                               Colocation not only permits direct access to
  information sharing during events or         partners, but also allows centers to use the
  full-time.                                   colocated agency’s resources (e.g., systems
                                               and personnel) for expedited information flow
  Fusion Center Liaison Officer                or to share responsibilities (e.g., shared
  Program—Network of law
                                               security officer) to achieve baseline
  enforcement, emergency services, and
  private sector officials who are             capabilities. DHS has also identified this best
  responsible for reporting and                practice. Figure 4 outlines additional best
  disseminating information from the           practices identified during our review.
  Fusion Center to local agencies.
                                               Not all jurisdictions have the resources to
  Open Houses—Brings EOC personnel
  into the Fusion Center to demonstrate        colocate. The FEMA-administered EOC
  capabilities and responsibilities.           grant program’s guidance clearly prohibits
                                               money from being used to “fund the
  Exercises—To become familiar with            construction or renovation of State, local, or
  staff, test capabilities, and identify       tribal Fusion Centers.” Officials told us that
  issues.
                                               this language discourages states and urban
                                               areas from colocating Fusion Centers and
                                               EOCs for fear that they might not be eligible
                                               for the EOC grant program.

                        Information Requirements

                        The Baseline Capabilities states that information requirements for
                        the Fusion Center shall be defined, documented, updated regularly,
                        and consistent with the center’s goals and objectives. It is
                        imperative that Fusion Centers coordinate information
                        requirements with their partners, including EOCs. It is also
                        important that EOC officials specify exactly what information or
                        intelligence they need, why they need it, and when they need it.
                        One municipal EOC director said that they shared the purpose and
                        mission of their EOC with the area Fusion Center; however,
                        confusion remains regarding the Fusion Center’s interaction with
                        lower-level EOCs. This confusion exists because the Fusion



               Relationships Between Fusion Centers and Emergency Operations Centers

                                             Page 14
        Center communicates only with the county EOC and not the
        municipal EOCs. Another EOC director in the area said that the
        Fusion Center is aware and has an understanding of what the EOC
        needs, including having all comprehensive emergency operations
        plans from the region. However, the official expressed concern
        over the interaction between the Fusion Center and local EOCs
        during a disaster because there have been no major disasters in
        their region, so the process has not been tested.

        Without dialogue between Fusion Center and EOC personnel,
        shared information may not be useful. Providing timely, accurate,
        and relevant information is the key to successful interaction. In
        one case, unnecessary information was being passed along to an
        EOC. The EOC quickly responded and informed the Fusion
        Center that it was sending information that was easily available
        through other sources. A relationship nurtured through dialogue
        enabled this problem to be rectified quickly. Conversely, states
        with one Fusion Center can have difficulty building individual
        relationships with each of the EOCs. In some cases, the Fusion
        Center will send information to the state EOC, and further
        dissemination to local EOCs is dependent on the state. However,
        as discussed below, if this information flow is not documented,
        information sharing with local EOCs may be inconsistent.

        Product Dissemination Plans

        According to the Baseline Capabilities, each Fusion Center shall
        develop a high-level dissemination plan that documents the
        procedures and communications mechanisms for timely
        dissemination of Fusion Center products to core and ad hoc
        customers, which include EOCs. Fusion Centers should develop
        these dissemination plans with their partners to ensure that
        information needs are being met.

        Our discussions with Fusion Center officials showed that some did
        have dissemination plans; however, they did not always include the
        end user in drafting these documents. Some Fusion Center
        officials said they did not have the resources and personnel to
        develop written dissemination plans. Other Fusion Center leaders
        were fairly new to their positions and had not yet begun
        developing written policies and procedures.

        Other Fusion Centers used undocumented processes to disseminate
        products and information to EOCs. For example, some Fusion



Relationships Between Fusion Centers and Emergency Operations Centers

                              Page 15
        Center officials rely on personal contacts and their functional
        experience to disseminate information. Changing personnel,
        rotations, and reassignments can greatly hamper the flow of
        information, especially when processes are not documented.
        Results from a 2010 DHS survey indicate that 66% of Fusion
        Centers have documented dissemination plans and procedures.
        However, when DHS validated the results of this survey, it
        determined that nearly half of the Fusion Centers actually relied on
        ad hoc processes to distribute their products to customers, and only
        47% had plans in place for disseminating Alerts, Warnings, and
        Notifications.

        Fusion Centers have made progress since this study was
        conducted. DHS resurveyed Fusion Center directors on their
        progress and released a report on its findings in April 2011. The
        report highlights the improvement Fusion Centers have made in
        developing written dissemination plans for their customers.
        Specifically, 64% of Fusion Center directors indicate that their
        centers had implemented their plan, policy, or standard operating
        procedure to distribute products.

        Soliciting Feedback

        According to the Baseline Capabilities, Fusion Centers shall define
        and implement a feedback mechanism that allows recipients of
        information or products to make suggestions to improve products.
        Soliciting feedback from customers for the products and
        information they provide allows those customers the opportunity to
        evaluate their performance. However, half of the Fusion Center
        directors we asked said they do not solicit feedback. In fact,
        according to the 2010 Baseline Capability Assessment, 60% of all
        Fusion Centers have not developed and implemented a feedback
        mechanism. Fusion Center officials indicated the need for more
        guidance and training to develop an effective feedback mechanism.

        Progress has been made since the 2010 baseline capabilities
        assessment. Based on a survey conducted by DHS in April 2011,
        there has been significant improvement. More than 76% of Fusion
        Center directors reported having developed and implemented a
        feedback mechanism; however, only 55% evaluated whether their
        feedback mechanism was effective.

        Some Fusion Center officials said that they do include feedback
        forms in their regularly disseminated products. However, this



Relationships Between Fusion Centers and Emergency Operations Centers

                              Page 16
        method may not provide effective results. Of the Fusion Centers
        we visited that provided feedback forms, none actually received
        responses that would be useful to improve their product. Numerous
        Fusion Centers are adamant about the ineffectiveness of the more
        passive approaches, such as the feedback forms in their regularly
        disseminated products. Another reason Fusion Centers said they
        did not have written procedures for soliciting feedback is that they
        do not have a strong relationship with the EOCs. Likewise, many
        EOCs said they do not have an opportunity to provide feedback
        because they do not receive information from the Fusion Center on
        which to comment.

        An important part of the feedback process is updating the center’s
        information requirements, collection plan, and analytic production
        strategy based on customer feedback. However, the Baseline
        Capabilities Assessment completed in 2010 found that fewer than
        50% of Fusion Centers have established this process. In addition,
        only 38% of Fusion Centers indicated that they have mechanisms
        in place to receive stakeholder feedback on all parts of the
        intelligence cycle.

        Conclusion

        Coordination with response and recovery officials in developing
        policies and procedures for disseminating products to EOCs is
        essential to Fusion Centers’ ability to fulfill their responsibilities.
        Fusion Centers need to ensure that customers are receiving
        consistent, timely, and relevant information to help them perform
        their duties during the steady state or in an emergency. Without
        soliciting useful feedback, Fusion Centers cannot adequately assess
        the usefulness and quality of information provided to EOCs. This
        could adversely affect the Fusion Centers’ efforts to enhance their
        interaction and relationship with EOCs and improve their
        information sharing capabilities. Furthermore, EOC officials
        should avail themselves of opportunities to interact with Fusion
        Centers, including participating in Fusion Center open houses and
        inviting Fusion Centers to participate in exercises.

        Many best practices have been identified to increase coordination
        and communication between Fusion Centers and EOCs,
        particularly colocating the Fusion Center and the jurisdiction’s
        EOC; however, this requires both resources and a desire to do so.




Relationships Between Fusion Centers and Emergency Operations Centers

                              Page 17
Recommendations
        We recommend that the Director, State and Local Program Office:

        Recommendation #3: As a part of the Baseline Capabilities
        Assessment, assess the effectiveness of marketing activities and
        outreach efforts of Fusion Centers to promote the products,
        services, and information they can provide to Emergency
        Operations Center officials and other partners.

        Recommendation #4: Provide Fusion Centers with guidance and
        technical assistance to ensure that they adhere to the Baseline
        Capabilities to have written procedures for the products and
        information they disseminate to core and ad hoc customers,
        including Emergency Operations Center officials.

        Recommendation #5: Provide technical assistance to Fusion
        Center officials to conduct stand-alone periodic surveys to assess
        the usefulness and quality of the products and information provided
        to their partners, including Emergency Operations Center officials.

Management Comments and OIG Analysis
        Recommendation #3: DHS I&A concurred with this
        recommendation and said that as a component of the annual Fusion
        Center Assessment Program, it is documenting Fusion Centers’
        communication and outreach efforts to promote awareness of the
        products, services, and information they can provide to their
        customers, including non-law enforcement partners.

        We consider this recommendation resolved because steps are being
        taken to implement it; however, it will remain open until evidence
        is provided that DHS I&A is not only documenting but is also
        assessing the effectiveness of Fusion Centers’ marketing activities
        and outreach efforts to promote the products, services, and
        information they can provide to their customers, including EOC
        officials.




Relationships Between Fusion Centers and Emergency Operations Centers

                              Page 18
             Recommendation #4: DHS I&A concurred with this
             recommendation and said it will continue to assist Fusion Centers
             with developing final, approved plans, policies, and/or standard
             operating procedures for their business processes. This includes
             supporting Fusion Centers’ ability to further disseminate threat
             information to state, local, tribal, and territorial governments and
             private sector entities, including law enforcement and non-law
             enforcement partners.

             We consider this recommendation resolved because steps are being
             taken to implement it; however, it will remain open until DHS I&A
             provides evidence that all Fusion Centers have written procedures
             for the products and information they disseminate to core and ad
             hoc customers, including EOC officials.

             Recommendation #5: DHS I&A concurred with this
             recommendation and said it will continue to assist Fusion Centers
             by sharing best practices and emphasizing the importance of
             collecting feedback on the usefulness and quality of the products
             that Fusion Centers provide to law enforcement and homeland
             security partners.

             We consider this recommendation resolved because steps are being
             taken to implement it; however, it will remain open until DHS I&A
             provides evidence that it has a plan to provide technical assistance
             to Fusion Centers to conduct stand-alone surveys for assessing the
             usefulness and quality of products and information provided to
             their partners, including EOC officials.

Federal Coordination and Information Sharing Guidance
     Fusion Centers and EOCs are not always aware of and do not always use
     federal guidance intended to assist them in their efforts to coordinate and
     share information. Although Fusion Centers and EOCs are not required to
     follow federal guidance, it is a good business practice to use any resource
     that can enhance their working relationships and assist with achieving
     desired results. Because Fusion Centers and EOCs may not be aware of or
     using the guidance issued specifically to address coordination and
     information sharing efforts, they may not be applying best practices or
     practical steps designed to help coordinate and integrate their operations.




     Relationships Between Fusion Centers and Emergency Operations Centers

                                   Page 19
                         Comprehensive Preparedness Guide 502

                                      FEMA, in conjunction with the joint DHS/DOJ Fusion
                                      Process Technical Assistance Program, 8 developed
                                      Comprehensive Preparedness Guide-502:
                                      Considerations for Fusion Center and Emergency
                                      Operations Center Coordination (CPG-502). CPG-502
                                      provides guidance for coordination between Fusion
                                      Centers and EOCs. It outlines the roles of Fusion
                                      Centers and EOCs within the fusion process and
                                      provides steps by which these entities can work
                                      together to share information and intelligence on an
                                      ongoing basis.

                                      CPG-502 recommends a four-step process to help
                                      Fusion Centers and EOCs coordinate and integrate
                                      operations (see figure 5).

                 Figure 5. Four-Step Coordination Process




                 Source: DHS.

                         Step 1: Fusion Center and EOC personnel should familiarize
                         themselves with each other’s capabilities, needs, and requirements.

                         Step 2: Once the Fusion Center and EOC are aware of each
                         other’s capabilities, needs, and requirements, partnerships should
                         be created.




8
 The DHS/DOJ Technical Assistance Program, which began in 2007, is a collaborative effort to develop
and enhance the national Fusion Center network by offering classes and workshops delivered by subject
matter experts.



                 Relationships Between Fusion Centers and Emergency Operations Centers

                                                Page 20
        Step 3: Agreements should be in place describing what
        information will be shared and how it will be shared (taking
        security clearances into account), particularly during steady-state
        and active-state operations.

        Step 4: Numerous training courses are applicable to
        EOC/emergency management and Fusion Center personnel. One
        of the best ways for Fusion Center and EOC staff to familiarize
        themselves with each other’s staff and operations is to jointly
        attend training, workshops, and exercises.

        Fusion Centers and EOCs can use CPG-502 as a catalyst to further
        develop their relationships, allowing for a better understanding of
        each other’s capabilities, information needs, and requirements
        while also leveraging all available resources during a disaster or an
        emergency. Although almost all Fusion Center officials and many
        of the EOC officials had seen CPG-502, the document was not
        effectively disseminated to all EOC officials, nor was the
        importance of its implementation promoted.

        During our visits to the 17 Fusion Centers, 1 told us that it had
        never seen the CPG-502 document and 11 said that they were
        aware of it but were not using it. Of the 31 EOCs visited, 3 were
        using the CPG-502 document, 12 had never seen it, and 16 had
        received it but are not using it to improve the coordination and
        integration of Fusion Center and EOC operations. One Fusion
        Center director told us that he does not see the connection between
        Fusion Centers and EOCs; therefore, he has not used CPG-502.
        Another Fusion Center director said that products like CPG-502
        are released all the time, but there is not enough time to read them
        to identify how they can be useful. The director also said that
        CPG-502 is just another document unless resources are available to
        implement it. Finally, a local EOC manager felt that CPG-502
        applied only to state Fusion Centers and EOCs because of the
        structure of the organizations outlined in the document and the
        structure of the guidance.

        One Fusion Center director we visited believes that creating
        partnerships is the most important aspect of CPG-502; however,
        throughout our visits, we encountered Fusion Centers and EOCs
        that were not partnering with each other. This director said that the
        biggest benefit to the document was the emphasis on personal
        relationships between the Fusion Centers and EOCs. Many of the
        EOCs, though, have little or no interaction with their Fusion



Relationships Between Fusion Centers and Emergency Operations Centers

                              Page 21
        Center. For example, an EOC director said that if he needed
        actionable information, he would go to the city police instead of
        the Fusion Center. Some police personnel said that they would
        contact other state Fusion Centers before contacting their own
        Fusion Center. A personal relationship with all partners fosters an
        appreciation of the roles, responsibilities, and endeavors undertaken
        by each center. Written procedures can be developed from these
        interactions.

        Conclusion

        More than 83% of the locations visited during our fieldwork either
        did not receive or were not using CPG-502. Coordination between
        Fusion Centers and EOCs is vital to enhancing our Nation’s
        security. Fusion Centers and EOCs need to develop positive
        relationships to share information and intelligence on a daily basis
        as well as when responding to disasters. CPG-502 has information
        that can help Fusion Centers and EOCs enhance their relationships
        by providing guidance on how to gain a better understanding of each
        other’s roles and responsibilities. CPG-502 can also support Fusion
        Centers in their implementation of the Baseline Capabilities, and
        help EOCs fulfill their emergency management responsibilities.

Recommendation
        We recommend that the Director, State and Local Program Office
        and the Assistant Administrator, National Preparedness
        Directorate:

        Recommendation #6:

            Ensure that the Comprehensive Preparedness Guide (CPG)-502
            and other federal guidance regarding coordination and
            information sharing efforts between Fusion Centers and
            Emergency Operations Centers is disseminated to all state,
            local, and tribal Emergency Operations Centers;
            Promote the benefits of using CPG-502 and explain how it is
            designed to enhance Fusion Center and Emergency Operations
            Centers coordination and information sharing activities; and
            Ensure that CPG-502 is applicable to local Emergency
            Operations Centers.




Relationships Between Fusion Centers and Emergency Operations Centers

                              Page 22
Management Comments and OIG Analysis
        Recommendation #6: DHS I&A did not concur with this
        recommendation. DHS I&A said that emergency management
        partners, including EOCs, are FEMA’s primary stakeholders, and
        ensuring the dissemination and applicability of CPG-502 to both
        state and local EOCs is a recommendation best directed to FEMA.
        However, DHS I&A said that it has and will continue to disseminate
        CPG-502 to Fusion Centers and explain its purpose and support
        FEMA with disseminating this guidance to emergency
        management partners.

        FEMA concurred with this recommendation and said that it has
        assisted with the dissemination of CPG-502 to Fusion Centers and
        the 10 FEMA Regions. FEMA has also put the document and a
        factsheet on its website. FEMA also stated that a new Fusion
        Process Technical Assistance offering has been developed to
        implement the concepts of CPG-502. Finally, FEMA believes that
        CPG-502 is already designed to be applicable to all jurisdictions.

        We consider this recommendation unresolved and open since we
        believe DHS I&A should further promote the benefits of CPG-502
        with both Fusion Centers and EOCs. When engaging EOC
        officials, DHS can refer to CPG-502 as a tool to enhance and
        develop their relationships. CPG-502 outlines the roles of Fusion
        Centers and EOCs within the fusion process and provides steps by
        which these entities can work together to share information and
        intelligence on an ongoing basis. Opportunities exist to promote
        this guidance through best practices identified for Fusion Center
        and EOC coordination such as the Fusion Center Liaison Officer
        Program and conducting open houses.

        While CPG-502 is not written exclusively for state use, some local
        EOC officials we interviewed expressed concerns that the
        functions and positions outlined in CPG-502 do not translate to
        their operations. FEMA needs to document either that local EOCs
        were sufficiently consulted in the drafting of CPG-502 or that they
        have taken steps to modify CPG-502 to ensure its applicability to
        local EOCs. FEMA also needs to provide us with their plans to
        further disseminate and promote the benefits of CPG-502 to local
        and tribal EOCs.




Relationships Between Fusion Centers and Emergency Operations Centers

                              Page 23
Classification of Information
      Information classification significantly affects how that information can be
      shared. Many emergency managers do not have clearances, and EOCs
      often do not have the secure information technology systems necessary to
      transmit or receive classified information. As a result, the federal
      government and Fusion Centers need to find other ways to share
      information with emergency management personnel and to minimize the
      amount of information that requires a security clearance.

      Overclassification of information can prevent information from being
      shared with those who may be able to benefit from it, such as emergency
      managers who may need to pre-position goods or lean forward in
      anticipation of an incident. Both federal and local levels face challenges
      with overclassification, as well as the use of the “law enforcement
      sensitive” designation. The federal government is taking steps to reduce
      overclassification; however, guidance to accomplish this is still being
      finalized and has not been implemented.

              Federal Requirements Governing Classified Information

              A number of federal laws and Executive orders govern the
              classification of information, which aims to prevent the
              unauthorized disclosure of information that could be damaging to
              national security. However, information that is not shared because
              of classification can also decrease security. The 9/11 Commission,
              mandated by Congress to provide recommendations on preventing
              future terrorist attacks, recommended that intelligence reports be
              written in their most shareable but still meaningful form to ensure
              that the largest number of people can access and use the
              information.

              Congress has moved to improve information sharing not only
              within the federal government, but also with state and local
              partners in the national and homeland security structure. Congress
              passed the Reducing Over-Classification Act (P.L.111-258) in the
              belief that decisions on classification need to consider the potential
              benefits to national security by sharing information rather than
              withholding it. The law requires the Secretary of Homeland
              Security to develop a strategy to prevent the overclassification of
              homeland security and other information and to promote the
              sharing of unclassified information. President Obama released
              Executive Order 13549, Classified National Security Information
              Program for State, Local, Tribal, and Private Sector Entities, in



      Relationships Between Fusion Centers and Emergency Operations Centers

                                    Page 24
                            August 2010 to ensure the proper safeguarding of classified
                            information shared with state, local, tribal, and private sector
                            entities.

                            Distributing Intelligence Reports With “Tear Lines”

                            The Reducing Over-Classification Act assigns the Secretary of
                            Homeland Security the responsibility to “prepare finished
                            intelligence and information products in both classified and
                            unclassified formats, as appropriate, whenever reasonably expected
                            to be of benefit to a State, local, or tribal government (including a
                            state, local, or tribal law enforcement agency) or a private sector
                            entity.” It requires the Director of National Intelligence to create
                            guidance on “portion marking” to address situations in which
                            intelligence reports that contain both classified and unclassified
                            information can be shared more easily by removing the classified
                            information. Some Fusion Center officials said that information
                            coming from DHS and other federal partners could be more clearly
                            marked as to which portions can be shared. They also said that it
                            would be helpful to receive training on how to handle these
                            marked documents.

                            DHS I&A officials said that they send out as many products as
                            possible with “tear lines.”9 They said they are impeded, however,
                            when they go back to the originating agency asking for portion
                            markings and the request is denied, or when they prepare an
                            unclassified version of the product but the originating agency
                            denies permission to release the unclassified version. DHS I&A
                            has responded to 15 requests by state and local officials for
                            downgrading classification levels or providing tear lines for the
                            information provided by the department. However, the DHS
                            official responsible for officially challenging the classification of
                            information from other federal agencies said that DHS I&A has not
                            launched any official challenges in more than a year.

                            Classified National Security Information Program

                            The Reducing Over-Classification Act created a Classified
                            Information Advisory Officer position within DHS to develop and
                            administer training programs to assist state, local, and tribal

9
  A “tear line” is a portion of a classified intelligence report or document that contains a sanitized version of
the information in that report. By using tear lines, important information in a highly classified intelligence
report can be shared more widely with those who need it but do not have the necessary clearances to read
the full report.



                  Relationships Between Fusion Centers and Emergency Operations Centers

                                                    Page 25
                           entities to develop plans and policies regarding the use of classified
                           information, including ways to communicate with noncleared
                           personnel, and the appropriate procedures for challenging
                           classification determinations. The Secretary of Homeland Security
                           appointed this officer in December 2010 by adding this
                           responsibility to the Chief of the Administrative Security Division
                           at DHS, and tasked the Classified Information Advisory Officer to
                           implement Executive Order 13549.

                           The Implementation Directive for Executive Order 13549 is in the
                           final draft stages, needing only one more federal agency’s
                           concurrence and the Secretary of DHS’ signature to become
                           effective. This directive will standardize the process by which
                           sensitive information is shared with state and local partners,
                           establish a standard process for challenging the classification of
                           information, and establish training requirements for those who
                           handle classified information at the state, local, tribal, and private
                           sector levels. The dissemination and implementation of this
                           guidance should alleviate many of the classification issues
                           identified by Fusion Center and EOC staff during our review.

                           “Law Enforcement Sensitive” Designation

                           Designation of information as “law enforcement sensitive”10
                           presents an equal challenge to information sharing. Just as the
                           federal government has struggled in the past with overclassifying
                           information, state and local jurisdictions have a similar tendency to
                           overclassify information as law enforcement sensitive, preventing
                           it from being shared with non-law enforcement officials such as
                           EOC personnel. However, by removing personally identifiable
                           information or criminal information from law enforcement
                           sensitive products, Fusion Center staff can share overall threat
                           information with non-law enforcement partners.

                           Many Fusion Center officials, particularly in all-crimes Fusion
                           Centers, do not feel that information in law enforcement sensitive
                           documents needs to be shared outside those with arrest authority.
                           In some cases, state laws prohibit the sharing of information
                           outside the law enforcement community. However, a better
                           understanding of the information needs of emergency management
                           might encourage Fusion Centers officials to remove the law

10
  The definition of “law enforcement sensitive” varies from state to state; however, it tends to describe
detailed information about potential subjects of criminal investigations that could hinder prosecution if
released.



                  Relationships Between Fusion Centers and Emergency Operations Centers

                                                   Page 26
        enforcement sensitive portions of products so that emergency
        managers (and other partners) can use the remainder.

        Conclusion

        DHS needs to create intelligence products that are clearly portion
        marked or have tear lines, whenever possible. It also needs to train
        Fusion Center officials on how to handle and disseminate these
        products on a much broader scale to the emergency management
        community, as well as other partners. The finalization,
        dissemination, and implementation of DHS’s Implementing
        Directive for Executive Order 13549 will help accomplish this.

        To improve information sharing, Fusion Centers need to be able to
        remove the law enforcement sensitive information from the
        intelligence products they create, just as the federal government
        needs to create unclassified versions of its intelligence products.
        Although Fusion Centers have to comply with state laws governing
        the sharing of law enforcement sensitive information, DHS I&A
        can provide training and technical assistance to help the centers
        work within existing state laws to better share information.

Recommendations
        We recommend that the Director, State and Local Program Office:

        Recommendation #7: Effectively disseminate the Implementing
        Directive for Executive Order 13549, once it is finalized by the
        DHS Administrative Security Division, to all applicable
        stakeholders, and adhere to the policies regarding portion marking,
        training, and classification challenges.

        We recommend that the Assistant Administrator, National
        Preparedness Directorate:

        Recommendation #8: Provide training for Fusion Center staff on
        how to handle portion-marked products and redact law enforcement
        sensitive information from products generated at the state and local
        levels.




Relationships Between Fusion Centers and Emergency Operations Centers

                              Page 27
Management Comments and OIG Analysis
        Recommendation #7: DHS I&A concurred with this
        recommendation and said it will assist in the dissemination of the
        Implementing Directive for Executive Order 13549 to Fusion
        Center stakeholders. DHS I&A also said that it will continue to
        adhere to all policies regarding portion marking, training, and
        classification challenges issued by the DHS Administrative
        Security Division.

        We consider this recommendation resolved because steps are being
        taken to implement it; however, it will remain open until evidence
        is provided that DHS I&A is disseminating the Implementing
        Directive for Executive Order 13549 to all applicable stakeholders.

        Recommendation #8: FEMA concurred with this
        recommendation and said that the Fusion Process Technical
        Assistance Program offers a Security Technical Assistance
        workshop designed to assist Fusion Centers on handling,
        collecting, storing and sharing classified and controlled-
        unclassified information. DHS I&A said that in coordination with
        the Office of Security, it will support FEMA with this
        recommendation and lead outreach on training opportunities to
        Fusion Center stakeholders.

        We consider this recommendation resolved because steps are being
        taken to implement it; however, it will remain open until FEMA
        provides documentation on the course materials used for training
        Fusion Center staff on how to handle portion-marked products and
        redact law enforcement sensitive information.




Relationships Between Fusion Centers and Emergency Operations Centers

                              Page 28
Appendix A
Purpose, Scope, and Methodology

                    The objective of our audit was to determine to what extent Fusion
                    Centers and Emergency Operations Centers interact and share
                    information. To accomplish our objective, we reviewed and
                    analyzed the President’s National Strategy for Information
                    Sharing, Baseline Capabilities, the Comprehensive Preparedness
                    Guide 502: Considerations for Fusion Center and Emergency
                    Operations Center Coordination, prior OIG and Government
                    Accountability Office (GAO) reports relevant to our review, grant
                    guidance, Fusion Center baseline capability assessments, and other
                    applicable documents.

                    We interviewed officials from the DHS Office of Intelligence and
                    Analysis and the FEMA Grant Programs Directorate in order to
                    determine national-level policy and procedures. We conducted
                    these interviews at DHS and FEMA headquarters in Washington,
                    DC. We also attended the National Fusion Center Conference in
                    Denver, Colorado.

                    Additionally, we interviewed officials at 17 Fusion Centers and 31
                    Emergency Operations Centers in 9 of the 10 FEMA Regions. We
                    selected a judgmental sample of sites of various sizes and locations.
                    For example, the Fusion Centers included both state and urban area
                    centers, and the Emergency Operations Centers included state,
                    local, and tribal locations. The centers were located in Maynard
                    and Roxbury, Massachusetts; Trenton, New Jersey, and
                    Philadelphia, Pennsylvania; Orlando and Miami, Florida; Chicago,
                    Illinois, and Madison, Wisconsin; Oklahoma City, Oklahoma, and
                    Santa Fe, New Mexico; Kansas City and Jefferson City, Missouri;
                    Las Vegas and Carson City, Nevada; Salem, Oregon, and Seattle,
                    Washington; and Charleston, West Virginia. At the site visits, we
                    asked interviewees a standardized list of questions and requested
                    that they provide specific documents relative to their interaction
                    and information sharing activities.

                    We conducted this performance audit between October 2010 and
                    June 2011 pursuant to the Inspector General Act of 1978, as
                    amended, and according to generally accepted government
                    auditing standards. Those standards require that we plan and
                    perform the audit to obtain sufficient, appropriate evidence to
                    provide a reasonable basis for our findings and conclusions based
                    upon our audit objectives. We believe that the evidence obtained
                    provides a reasonable basis for our findings and conclusions based
                    upon our audit objectives.



            Relationships Between Fusion Centers and Emergency Operations Centers

                                          Page 29
Appendix B
Management Comments to the Draft Report


                                                                               u.s. IHparl"'•• l '" 1I000....d Sootyrily
                                                                               W.'hi.:t..... lie 10518


                                                                    .~. Homeland
                                                                    •          Security
                                                    SEP 1'3 /011




                                                                             0/
                                                     RECORD

        MEMORANDUM FOR:               Malt Jadacki
                                      Assistant Inspe<:tor General for Emergency Management Oversight
                                      Department of Homeland Security

        FROM:                         C,,,," A. W'll""     d~
                                                            cc and Anal
                                      Under Secretary for lntell"                    i

        SUBJECT:                      Corrective Action Plans r Recommendations Contained in OIG·
                                      ll-007-EMO-FEMA, Relationships Between Fusion Centers ond
                                      Emergency OperatiollS Centers

        The Department of Homeland Security (DepanmentlDHS) apprt'Ciatcs the opportunity to review
        and comment on the Office of Inspector General (OIG) draft report for 0IG-ll-007-EMO-
        FEMA, Relationships Between Fusion Centers and Emergency Operations Centers. The
        Department, particularly the Office of Intclligence and Analysis (I&A), is addressing any
        pertinent and relevant issues identified in the report.

        Our responses to each of the recommendations from the draft report can be found below:

        We reeommend that the Director, State and Local Program Office and Assistant
        Administrator, National Preparedness Directorate:

        Recommendation #1: Develop and distribute materials for fusion center and Emergency
        Management officials that outline the benefits of pannering in an all-hazards approach to
        homeland security, and gatht>t and publish best praeticcs from jurisdictions that have adopted an
        all-hazards approach.

                I&A Response: Concur. As stated in both the National Strategy for Information
               Sharing and the Baseline Capabilitiesfor State and Major Urban Area Fusion Centers
               (Baseline Capabilities), state and major urban area fusion cenlt'l'S are ownt'd and managed
               by state and local governments. The Baseline Capabilities specifically recognizes that a
                fusion center's mission (whcther it be "all--crimcs" and/or "all.hazards·') should be
               defined based on jurisdictional needs. Funbennore, DHS has workt'd with federal, state,
                local, tribal, and territorial (SLIT) partners to develop and publish guidance in support of
                implementing all-hazards approaches, including the following appendices to the Baseline
               Capabilities: Critical Infrastructure alld Key Resources (CIKR): Protection Capabilities
               for Fusion Centers, Fire Service bllegrolionjor Fusion Centers, and Health Security:
               Public Health and Medica! ImegrOliollfor Fusion Cell/ers.




              Relationships Between Fusion Centers and Emergency Operations Centers 


                                                     Page 30

                                                                                               ·2·



       DHS supports this guidance lind also supports fusion centers in the fonn of deployed
       personnel, training, technical assistance, exercise support, Sc<:urily clearances,
       oonncctivity to ft,'dcral systems, technology, and grant funding. As a component of the
       joint DHS/Dcpartmcllt of Justice Fusion Process Technical Assistance Program, I&A's
       Stale and local Progrdm Office (SLPO), working ,..,jlh its Departmental and intcl'llgcncy
       partners, will continue to support the identification, documentation, and sharing of best
       practices and lessons !earned from fusion centers as they work with their partnm to
       implement all-hal.ards approaches.

       Additionally, I&A fully supports the assignment of a full time Federal Elm:rgency
       Management Agency (FEMA) Protection and National Prllmrcdncss dctailee to SLPO to
       support efforts to integrate and coordinate emergency management participation in fusion
       centers and associat/,'d national level guidance and policy.

Recommendation #2: Report annually on the amount ofhomt:land security grant funds awardcd
for fusion center use, as well as thc number of fusiOn centers that have adopted an all-hazards
approach or can demonstrate communication and coordination with emergency management
partners.

       I&A Respullse: Concur. As a component of the annual Fusion Center Assessment
       Program, SLPO is documenting the numb/''f of fusion ccnters that have adopted an all-
       hazards approach or can demonstrate communication and coordination with emt'fg(:ney
       management partners. Additionally, responsibility for reporting on the amount of
       homeland security grant funds leveraged for fusion centers is under the purview of the
       FEMA Protection and National Preparedness' Grant Programs Directorate (GPO), as this
       data is self-reported by the respective State Administrative Agency biannually via GPO's
       grant reporting too!' SLPO will support FEMA detennine the most effective manner to
       capture this infonnation.

       In order to leverage homeland security grant funds to support fusion center all-hazard
       approaches, I&A will work with the GPO to rCCQmmcnd revisions to the Emergency
       Operations Center (EOC) grant guidance to support all-hazards approaches and to allow
       the use of llmds lor fusiun centcr purposes provided thaI the fusion center is oo-Iocated or
       vinually linked with the EOC. I&A will also work with FEMA GPD to recommend
       revisions to the Emergency Management Perfonnance Grant program guidance to
       support all-hazards approaches and to allow the use offunds for hiring emerg/''T!cy
       managemcnt analysts placed in fusion centers.

We recommend that the Direclor, Stale and Local Program Office:

Recommendation #3: As a part of the Baseline Capabilities Assessment, assess the
effectiveness ofmarketing activities and outreach efforts of fusion centers to promote the
products, services, and infonnation they can provide to EOCs and other partners.




      Relationships Between Fusion Centers and Emergency Operations Centers 


                                            Page 31

                                                                                                 -3-


       I&A Responsr: Concur. As a component oflhc annual Fusion Center Assessment
       Program, SLPO is documenting fusion centers' communication and outreach efforts to
       promote awareness of the products, services, and infonnation they can provide to core
       and ad hoc customers, including non-law t:nforccmcnt partners.

Recommendation #4: Provide fusion centt:l"S with guidance and technical assistance to ensure
they adhere to the Baseline Capabilities to have written procedures for the products and
infonnation they disseminate to core and ad hoc customers, including EOCs.

       I&A Responst: Concur. SLPO is leading Departmental and interagency efforts \0
       assist fusion centers in building their capabilities, and specifically in mitigating capability
       gaps identified by the 2010 Baseline Capabilities Assessmenl A key focus ofthese
       mitigation efrons was to assist fusion centers in defining their business processes lhrough
       the development of final, appron::d plans, policies, and/or standard operating procedures.
       As of December 31, 2010, fusion centers had made progress in meeting this objective.
       SLPO will continue 10 assist fusion centers in this regard with a specific focus on
       supporting their efforts to implement Crilical Operational Capability (COC) #3:
       Disseminate, lbis COC is focusc<\ on supporting fusion centers' ability to further
       disseminate threat infonnation 10 SLIT and private sector enlities within their
       jurisdiction, including law enforcement and non-law enforcement partners,

Recommendation #5: Provide technical assistance to fusion center officials to conduct stand-
alone periodic surveys to more effectively assess the usefulness and quality of the products and
information that is provided 10 their partners, including emergency management partners,

       I&A Response: Concur. The Baseline Capabilities/or Stale and Major Urban Area
       Fusion Cellter.s identifies the dC\'e!opment of mechanisms to rccci\'e stakeholder
       feedback and update the fusion centers' plans and procedures based on this feedback (IS a
       capability necessary to execute the fusion process. SLPO will continue to assist fusion
       centers in building this capability by sharing best practices and emphasize thc importance
       ofcollecting feedback on the usefulness and quality of its products from law enforcement
       and homeland security partners,

We recommend that the Director, State and Local Program Office and the Assistant
Adminiurator, National Preparedness Directorate:

Recommendation #6:

• Ensure that the Comprehensive Preparedness Goide (CPG)-S02 and other fooeral guidance
  regarding coordination and infonnalion sharing cfforts between fusion centers and EOCs is
  disseminated to all state, local, and tribal EOCs;
• Promole the benefits of using CPO·SOl and explain how;1 is dcsignai to enhance fusion
  center and EOC coordination and infonnation sharing activities; and
• Ensure that ePG·SOl is applicable to local EOCs_




      Relationships Between Fusion Centers and Emergency Operations Centers 


                                             Page 32

                                                                                                    - 4-


       I&A Response: Non-Concur. As emL'fgcncy managcmcllt partners, including EOCs,
       are FEMA'5 primary stakeholders, ensuring the dissemination and applicnbility of CPG-
       502 to both stnte and local EOCs is a recommendation bcst directed to FEMA. SLPO has
       and will continue to disseminate erG-502 til fusion centers find e:-.:plain its purpose, and
       wj1J support FEMA disseminate this guidance to emergency managcffiL111 partners. as
       appropriate.

       Additionally, I&A will support FEMA as it leads efforts to engage with State level EOCs
       and cmtrg<..'11cy managt.-111l-'ll1 to ensure a statewide coordination/facilitation point for the
       distribution ofinfonnation shared by the fusion centers to local emergency management
       partners. By providing fusion centers with a primary emergency management p<:Jint of
       contact (POC). this POC can ensurc information is appropriately disseminated to
       local/county emergency managers and EOCs. At the same time, thi~ primary emergency
       managemcnt POC can ensure pertinent information from these partners is also shared
       with the fusion center.

\Ve recommend that the Direclor, State and I,ocal Program Office:

Recommendation #7: Effectively disseminate the Implementing Directive for Exceutivc OnkT
13549, once it is finalized by the DHS Administrative Security Division. to all applicable
stakeholders, and adhere to the policies regarding portion marking, training, and classilication
challenges.

       I&A Response: Concur. Reeogl'lizing that the DHS Administrative Security Division is
       leading the development of the Implemcnting Directive for Exttutive Order 13549, I&A
       will assist in the dissemination of the directive to fusion Cl,'ntcr stakeholdlTs.
       Additionally, I&A adheres, and will continue to adhere, to all policies regarding portion
       marking, training, and classification challenges issued by the [)HS Administrative
       Security Division.

We recommend Ihal the Assistant AdminiSlrator, National Preparedncss Directoratc:

Recommendation #8: Provide training for fusion center staff on how to handle portion-marked
products and redact law enforcemo::nt sensiti\·e information from products generated at tho:: state
and local levels.

       1&/\ Response: Concur. In coordination with the Office of Security, !&A will support
       fEMA with this recommendation and lead outreach on training 0pp<:Jrtullilies to fusion
       center stakcholden;.

We appreciate this 0pp<:Jrtunity to review and comment on the draft rt-port. In addition to this
response, technical comments and a sensitivity review WlTC prol'idt.-Q. under separate COVCI.




      Relationships Between Fusion Centers and Emergency Operations Centers 


                                              Page 33

                                                                            ..'''', '" '",.. ...,
                                                                                       -~"-­




                                                                  $.        FEMA
                                   OCT 2 7 lOll


'tBtOR":'Dl;'II'OR.            ,to" Jodo<ki
                               -,,,,,.... In,l""_ Gn><r.ol


fRO\l
                               ~~~
                               Do,·;..!J ,,"uf....,
                               Dim;,...
                               Offi« of P<>Ii,y ond   ~         Anall....

Sl.IJJlCT,                     FI:"tA R<>I"""" '" OIG [)nil Il<r<><t_ Rrl<>rl"""''I'S Hn>o","
                               hSMo C~"IC" -.I f;.......,...",,· q..-,,.,. C<.""


 Thank l"" f", tI>e _""i'~ In "'"."""'" ,., "'" suI>:I«' d.-." <q'OJ<'I. n.: fir>ding> in "'" T<;o>rt
,,',11 ""..,.,.1 ~, >lfCn~ ,1M: dfMn.".., ..... ",1i,~y or""..· w< <=>.-ut< ond m<o>Uf< our
pro-.          W. ~gnu< Ih< n«d h' ""',,,,"" In imp""" ""' 1""'="""- i..,lodi"ll ><1<1....""11 II><
."""m"...-.J.o: , ,.. ><>;I in 'h" «J'O'1- 00, =PJ""'" In ,I>< """",mmdaI,,,,,,, that owly 10
 FBt" an: '" 10,.·' (OilS I&A. whodl h., "'" 1<001 n:poji"ll "'" <JIp~<mmL "'" addr~
,I>< n:m;oini"lll<QJO'l1m<nd.1lion> >q>.>r>O<ly)'

lI«o......n....._ 01, D«--<Iop..o ,J;"";\>w:      mol""'"
                                                        lCf F""""" CaJIa.r>d l'.mcr~'
\lanag<m<Jl' offi<, ... ""', _Ill>< tI>ebmcli,.
                                             of porln<nJ>$ '" on "1·1uzonl, opprooclt 10
IJom<bnd -e<Wuy• .00 gotha ond flUbIt>lI b.'" pncric<> Irom JlIn>dLruo- that "'""<.00,000 .,
oJl·~"I'PfNI<h.


fDI , 11<>_"" fE."'" """"'" w-.th ,h,. m>ommrndotl<>n Coml"'<!><JJ"', 1't<:por<dJ><s,
GuM!< ~1 ,CPG-5021 ..... <k-<!op<>d "ll"Xlfi<:<II.ly ,. <n<X>Ilf>~ p""'.a,l,,p. brtvo«u r""""
C"""""..m     Emag<n<:y~ C ... en (EOC.). The               f"''''''
                                                                   I'roce>oT""'bmaol ~
I'NsJ>m """,pleoe> beoI pra<l'''' >WJ>IDan<>O "" Fll>ioII C"",.. EOC ~"" and ......'" tI>e
..nte-up " .. IobI< '" oil F"""" ,<IIlen ,,. tl'l< Fu""" """"" T""hnocal " .. """"" 11:""""",
,..,,.,. "" LI.IS lJ". r...,ples nfl:...c prK!'<'<'> .. "", ,ncl_ ... ']lp<JI(I«e> "" ,PG '11)2

                                  tn''''''
fE~A lIdi ..... thi ...... fi<S "'" oflh< «a>mrnm<lot"", .... roqu<>I. Ibat tI",
1<W'J'maId"""" b< rao/,a1 .... do...

_ " " "__:,I1:_ .......I y . . . , t h e _ o ( _ - . . n t r . . - fundo ... vdtd
roo- f _ C ~ u><, _
approacII '" """~.<:<>mmun>cmon
offi""'"
                                                   rooI_....
                 "'<11 _ the . . . - ofF "", C"""'" _ 110" odoptod .. oIl-IIourd>
                                                     rth ~ y Oper_ , .......




        Relationships Between Fusion Centers and Emergency Operations Centers 


                                              Page 34

                                                                                           l
                                                                                                                           Irig ffif
                                                                                                                             l~ l~Iflf~
                                                                                           ,                    l[[ llf n· t II !!h~ii  f
                                                                                                                                l-
                                                                                          liI ill li if t~ fIIf
                                                                                                           II Ir f ~Il' r .r ,"ff' J!
                                                                                          J~ [~ I;I .Ii, -j-I ~ '1" > It    !~~      lUi"   !   U      l'lj·~
                                                                                          f. - I'"r '. 'II.            I'   til       "I        II ,
                                                                                          !I    H l' I t l~il          I    q  !..              H I"   "lf~al
                                                                                                                                                      r'
                                                                                          H 'rl il r ~ h~r ~           ",   h. ~rt              l! II It.
                                                                                                                            :!r i~t              ~ r1iJIlf




Page 35

                                                                                          if If ' ~ [ i:~fi                            '~        I ~tr.
                                                                                          ! I                         Jr    iI; ~r"              t hSh,
                                                                                                & I     •              l"                        I
                                                                                           I : I df ,HI[~t                      'r~
                                                                                                                            .:r [H                 rll~'
                                                                                          J  i                                                   ,~.-~
                                                                                           I    , ,         I
                                                                                                   ~ I~~~ It'
                                                                                           I rr t 1" "&.J                              "'        j
                                                                                                             •                        q,         I     r'"'
                                                                                           .    •       t
                                                                                          It If .~ ~ l 1.li
                                                                                                       ?fif It               i~      :ii         j       tlJr
                                                                                                                                      1




           Relationships Between Fusion Centers and Emergency Operations Centers 

                                                                                          If                    ilil                 1 }
                                                                                               Ii . t                  II    ~[
                                                                                                                                                       j'I-I"
                                                                                                                             £.                         ~I.§l
                                                                                     '"    i·           ·         l
-.._,.._.-1                       J      '      _       f --.         n...                                ...
~-~_'
""_~""""IhrT_-'
                                   ........ __.<a*n. ••
                                               <"---.w.II_
                                                                          dl_ ...,...          -.-
                                                                                                 ~of
_ _ ><:o"loil\it «1 . . . . . . .......-. J                               ~   ..... o<c>   _ _ . ._ .

_.-10 ..... '
M:<--....
FI"", 1><1             _r.~"'_of"'"
                            ,.0Il _ _
                                                      ru",_ ,                  ~           ... th,.
A....... ~ tIIonL ~""- "P,n. "' .....   ''I.'''''.''') to> .......... _   "l"4'< _ ,,,,,,,,,,,,,,, '" )'001
....--.100:_ """"'<>eO           ,m l"'" dhoA   '''PO''. Sltoolld l"" "",.< """"" ........_ . ~on~
_     """"",I<. pin>< do:> .. ~ ....".,. '"  cal' ... \1A., a...,r " ....., l,......... B'od Sh,·U,,," .. !O!-
I)ol(o.   ,JOt,




           Relationships Between Fusion Centers and Emergency Operations Centers 


                                                    Page 36

Appendix C
Fusion Center Map and List of State and Major Urban Area Fusion Centers




                                                                                                         .
                                Relationships Between Fusion Centers and Emergency Operations Centers


                                                               Page 37

Appendix C
Fusion Center Map and List of State and Major Urban Area Fusion Centers


                               State Fusion Centers                                                  Urban Area Fusion Centers
Alabama Fusion Center                        Nebraska Information Analysis Center                Boston Regional Intelligence Center
                                             New Hampshire Information and
Alaska Information and Analysis Center                                                           Central California Intelligence Center
                                             Analysis Center
                                             New Mexico All Source Intelligence
Arkansas State Fusion Center                                                                     Central Florida Information Exchange
                                             Center
Arizona Counter Terrorism Information                                                            Chicago Crime Prevention and
                                             New York State Intelligence Center
Center                                                                                           Information Center
California State Terrorism Threat                                                                Cincinnati/Hamilton County Regional
                                             Nevada Threat Analysis Center
Assessment Center                                                                                Terrorism Early Warning Group
                                             North Carolina Information Sharing and              Delaware Valley Regional Fusion Center
Colorado Information Analysis Center
                                             Analysis Center                                     (Philadelphia)
Commonwealth Fusion Center                   North Dakota State and Local Intelligence           Detroit and Southeast Michigan
(Massachusetts)                              Center                                              Information and Intelligence Center
                                                                                                 Houston Regional Information Sharing
Connecticut Intelligence Center              Oklahoma Information Fusion Center
                                                                                                 Center
                                             Pennsylvania Criminal Intelligence                  Joint Regional Intelligence Center
Delaware Information Analysis Center
                                             Center                                              (Los Angeles)
                                             Regional Operations Intelligence Center             Kansas City Regional TEW Interagency
Florida Fusion Center
                                             (New Jersey)                                        Analysis Center
Georgia Information Sharing and
                                             Rhode Island Fusion Center                          Miami-Dade Fusion Center
Analysis Center

Hawaii Pacific Regional Information          South Carolina Intelligence and
                                                                                                 North Central Texas Fusion Center
Clearinghouse                                Information Center




                                    Relationships Between Fusion Centers and Emergency Operations Centers 


                                                                   Page 38

Appendix C
Fusion Center Map and List of State and Major Urban Area Fusion Centers


                                     State Fusion Centers                                                      Urban Area Fusion Centers
 Idaho Criminal Intelligence Center                  South Dakota Fusion Center              Northeast Ohio Regional Fusion Center
                                                     Statewide Terrorism & Intelligence      Northern California Regional Intelligence
 Indiana Intelligence Fusion Center
                                                     Center (Illinois)                       Center
                                                     Strategic Analysis and Information      Northern Virginia Regional Intelligence
 Iowa Intelligence Fusion Center
                                                     Center (Ohio)                           Center
                                                                                             Orange County Intelligence Assessment
 Kansas Intelligence Fusion Center                   Tennessee Fusion Center
                                                                                             Center (California)
                                                     Terrorism Information Threat Assessment San Diego Law Enforcement
 Kentucky Intelligence Fusion Center
                                                     Network Fusion Center (Oregon)          Coordination Center
 Louisiana State Analytic Fusion                                                             Southern Nevada Counterterrorism
                                                     Texas Fusion Center
 Exchange                                                                                    Center
                                                     Utah Statewide Information and Analysis Southeastern Wisconsin Threat Analysis
 Maine Information and Analysis Center
                                                     Center                                  Center
 Maryland Coordination and Analysis                                                          Southwestern Pennsylvania Region 13
                                                     Vermont Fusion Center
 Center                                                                                      Fusion Center
 Michigan Intelligence Operations Center             Virginia Fusion Center                               St. Louis Terrorism Early Warning Group
                                                                                                          Washington Regional Threat and
 Minnesota Joint Analytical Center                   Washington State Fusion Center
                                                                                                          Analysis Center
 Mississippi Analysis and Information
                                                     West Virginia Intelligence Fusion Center
 Center
 Missouri Information Analysis Center                Wisconsin Statewide Information Center

 Montana All-Threat Intelligence Center              Wyoming Fusion Center

*The map and list of state and major urban area Fusion Centers do not include the Puerto Rico National Security State Information Center.




                                            Relationships Between Fusion Centers and Emergency Operations Centers 


                                                                            Page 39

Appendix D
Major Contributors to this Report

                     Amy Hall, Director
                     Adrian Dupree, Audit Manager
                     Soraya Vega, Audit Manager
                     Douglas Campbell, Program Analyst
                     Ryan Hartong, Program Analyst
                     Eric Hostelley, Program Analyst
                     Brandon Landry, Program Analyst
                     Stuart Josephs, Referencer




             Relationships Between Fusion Centers and Emergency Operations Centers

                                           Page 40
Appendix E
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      DHS Audit Liaison (Project Code 11-007-EMO-FEMA)

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator
                      FEMA GAO/OIG Liaison (Project Code 11-007-EMO-FEMA)

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




             Relationships Between Fusion Centers and Emergency Operations Centers 


                                            Page 41

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
